OIG Investigative Reports El Paso, TX 11/09/2010 - Federal Grand Jury in El Pso Indicts Two More in Corruption Investigation
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
U.S. Department of Justice
U.S. Attorney's Office
Western District of Texas
John E. Murphy, U.S. Attorney
FOR IMMEDIATE RELEASE
On the web: www.usdoj.gov/usao/txw/index.html
November 9, 2010
Daryl Fields, Public Information Officer
(210) 384-7440
Federal Grand Jury in El Pso Indicts Two More in Corruption Investigation
United States Attorney John E. Murphy and Federal Bureau of Investigation Special Agent in Charge David Cuthbertson announced today that a federal grand jury has indicted 62-yearold New York businessman Joseph O’Hara and 55-year-old former El Paso Independent School District Associate Superintendent Tomas Gabaldon in connection with the El Paso corruption investigation.
The indictment, returned last week and unsealed yesterday, charges the defendants with one count of conspiracy to commit mail fraud and deprivation of honest services; one count of conspiracy to commit wire fraud and deprivation of honest services; and, one count of mail fraud. The indictment alleges that between February 2003 and October 2007, O’Hara and an unindicted co-conspirator bribed Gabaldon as well as an EPISD trustee in order to secure and maintain a lucrative EPISD contract.
Each of the charges contained in the indictment call for up to 20 years in federal prison and a
maximum $250,000 fine upon conviction.
Gabaldon, who turned himself into FBI agents yesterday in El Paso, is currently on a $25,000 unsecured bond. O’Hara, who turned himself into authorities in New York yesterday, is currently on a personal recognizance bond. No trial date has been scheduled.
This is the eighth indictment stemming from a large scale FBI investigation which began in 2004. The Department of Education Office of Inspector General assisted in this portion of the investigation. To date, 13 individuals have pleaded guilty to criminal conduct stemming from this investigation. The eight indictments include a total of 19 charged defendants. Assistant United States Attorneys Laura Franco Gregory and Antonio Franco are prosecuting this case on behalf of the Government.
An indictment is merely a charge and should not be considered as evidence of guilt. The defendants are presumed innocent until proven guilty in a court of law.
#####
Top
Printable view
Last Modified: 04/14/2011
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov